SIGAR                                                     Special Inspector General for
                                                           Afghanistan Reconstruction




                                                                       SIGAR 14-1 Audit Report




      Afghan National Police Fuel Program: Concerted Efforts
      Needed to Strengthen Oversight of U.S. Funds




                                                                         OCTOBER
                                                                          2013
SIGAR Audit 14-1-AR/Afghan National Police Fuel Program
                                                     September 2013



SIGAR
                                                     Afghan National Police Fuel Program: Concerted Efforts Needed to
                                                     Strengthen Oversight of U.S. Funds


                                                     SIGAR 14-1 AUDIT REPORT
Special Inspector General for
Afghanistan Reconstruction                           WHAT SIGAR FOUND
                                                     SIGAR found that the U.S. Central Command Joint Theater Support
WHAT SIGAR REVIEWED                                  Contracting Command (C-JTSCC) and the Combined Security Transition
                                                     Command-Afghanistan (CSTC-A) had limited oversight of fuel purchases
Since 2005, Congress has appropriated                for the ANP. Poor oversight and documentation of blanket purchase
almost $52.8 billion to train, equip, and            agreements and fuel purchases resulted in the use of higher-priced
sustain the Afghan National Security                 vendors and questionable costs to the U.S. government. In several
Forces (ANSF), which includes the Afghan             instances, vendors charged fees for fuel deliveries that were not allowed
National Police (ANP) and the Afghan                 under the blanket purchase agreements. For example, from November
National Army. The Combined Security                 through December 2012, C-JTSCC approved fuel prices for 3 of the 4
Transition Command-Afghanistan                       ground fuel vendors for Kabul province that included transportation
(CSTC-A) equips and trains the ANSF.                 charges beyond what is allowed by the blanket purchase agreement.
CSTC-A uses the Afghanistan Security                 The total cost of the charges was approximately $520,000. In addition,
Forces Fund (ASFF) to provide the ANSF               C-JTSCC approved one aviation fuel vendor’s fuel prices that included
with equipment, supplies, and training, as           Afghan taxes and other fees totaling approximately $25,000 from
well as facility and infrastructure repair,          November 2010 through February 2012. The blanket purchase
renovation, and construction. A portion of           agreement did not allow the vendor to charge these taxes and fees.
the ASFF has been used to purchase fuel              CSTC-A did not adhere to the Federal Acquisition Regulation or C-
for the ANSF. CSTC-A uses blanket                    JTSCC’s blanket purchase agreement guidance related to use of two or
purchase agreements issued by the U.S.               more vendors for competition. For instance, from November 2012
Central Command Joint Theater Support                through December 2012, CSTC-A did not select the lowest-priced
Contracting Command (C-JTSCC).                       vendors for ground fuel for a majority of 717 orders in Kabul province
C-JTSCC, as the contracting office,                  because, as C-JTSSC and CSTC-A officials told us, the lower-priced
executes and oversees contracts and                  vendors did not have exemptions from taxes and duties. CSTC-A did not
exercises control over all contingency               document its justification for using the higher-priced vendors as
contracting in Afghanistan. Under the                required. The use of the higher-priced vendors resulted in almost $1
blanket purchase agreements, CSTC-A                  million in additional costs over the 2-month period. CSTC-A’s limited
provides the contracting officer                     oversight of ANP fuel orders and vendor deliveries also resulted in
representative and is responsible for                Helmand Provincial Police Headquarters (Helmand PHQ), 1 of the 70
ordering and accounting for fuel                     ANP locations currently approved to receive fuel directly from vendors,
purchased for the ANSF.                              ordering and receiving more fuel than it could store at its location on 24
Since 2007, C-JTSCC has established 17               separate occasions during a 28-month period. After CSTC-A officials
blanket purchase agreements with                     suspected the excessive fuel deliveries were instances of potential
vendors to provide fuel to the ANSF.                 fraud, they decreased fuel deliveries in October 2012. However, by
C-JTSCC approves the monthly fuel prices             December 2012, CSTC-A increased Helmand PHQ’s fuel deliveries to
and, following that approval, CSTC-A uses            300,000 liters without investigating the suspected fraud. Until C-JTSSC
the approved prices to select vendors                and CSTC-A implement effective controls over ANP fuel purchases and
and order fuel. These vendors then                   investigate allegations, there is limited assurance that U.S. funds and
deliver fuel directly to approximately 145           fuel are used as intended.
authorized ANP locations throughout                  CSTC-A provided $26.8 million in direct budgetary contributions to the
Afghanistan. Once vendors deliver fuel to            Afghan government for ANP fuel between October 2011 through
those 145 locations, the ANP stores and              December 2012; however, it did not provide evidence that it had
distributes the fuel to ANP district and             conducted the required risk assessments to determine MOI’s capacity
local level units.                                   for managing U.S. funds to purchase fuel for the ANP. CSTC-A’s one-page
                                                     briefing slide showed that its officials considered direct contributions for


       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
 ANP fuel to be “high-risk” for waste, fraud, and abuse                In January 2013, SIGAR reported on CSTC-A’s
 and approved the entire $243 million for direct funding               accounting and oversight of fuel purchased for
 for fiscal year 2014, even though CSTC-A did not have a               the Afghan National Army, and identified
 plan to mitigate this risk. Previously, from October 2011             weaknesses in CSTC-A’s process used to order,
 through August 2012, CSTC-A provided more than $10.6                  receive, and pay for fuel.
 million in direct budgetary contributions to the Afghan
 government, but could not confirm whether the funds                   This audit evaluates U.S. oversight of fuel
 had been used as intended. In December 2012, despite                  purchases for the ANP. Specifically, this audit
 several DOD assessments that MOI could not accomplish                 assesses (1) the extent to which C-JTSCC and
 its logistics mission without significant coalition support           CSTC-A provided oversight of ANP fuel
 until late 2014, CSTC-A provided another $16.2 million in             purchases, deliveries and consumption; (2)
 direct funding. By October 2012, CSTC-A developed new                 CSTC-A’s efforts to provide direct contributions
 requirements to improve controls and accountability over              to the Afghan government to support ANP’s
 how MOI spends U.S. funds. However, the effectiveness                 logistics transition; and (3) the basis and
 of those requirements could not be evaluated during                   support for CSTC-A’s funding request for fiscal
 SIGAR’s fieldwork because the MOI contract had not                    year 2013 and its estimates for fiscal years
 been awarded to begin the use of the $16.2 million in                 2014 through 2018.
 U.S. funds to purchase fuel for ANP.                                  SIGAR conducted this work in Kabul,
 CSTC-A’s justification for its fiscal year 2013 request and           Afghanistan from September 2012 to
 future ANP fuel budget estimates is based on, among                   September 2013.
 other things, prior fuel orders. Although CSTC-A has
 purchased fuel for the ANP for 6 years, it does not have
                                                                       WHAT SIGAR RECOMMENDS
 reliable information on the number of ANP vehicles and                SIGAR is making eight recommendations —two
 generators in use, nor has it received consumption data               recommendations to the Deputy Commanding
 from MOI. Further, CSTC-A officials could not support the             General, C-JTSCC, to ensure the
 $134.6 million it requested for ANP fuel in fiscal year               reasonableness of prices for ANP fuel and six to
 2013. CSTC-A relies on past ANP fuel orders and other                 the Deputy Commanding General, CSTC-A, to
 undocumented assumptions to calculate ANP fuel                        improve the oversight of U.S. funds used to
 requirements. SIGAR estimates that CSTC-A will have                   purchase ANP fuel, compliance with CSTC-A
 approximately $94 million in fiscal year 2013 funds for               direct contribution standard operating
 ANP fuel available when fiscal year 2014 begins,                      procedures, and future estimates for ANP fuel
 indicating that the fiscal year 2013 ANP fuel budget was              purchases.
 overestimated. Further, the overall budget estimates for
                                                                       SIGAR received comments on a draft of this
 fiscal years 2014 through 2018 may be overstated
                                                                       report from C-JTSCC and CSTC-A. C-JTSCC
 because they are based on ANP’s historical orders of
                                                                       concurred with the two recommendations
 fuel, including those questioned deliveries related to the
                                                                       addressed to it. CSTC-A concurred with 5 of the
 Helmand PHQ. In addition to the ongoing risks we
                                                                       6 recommendations addressed to it, but did not
 identified with the ANP fuel process, significant funds
                                                                       agree that reviews are needed to determine if
 could be put at increased risk of waste, fraud, and abuse
                                                                       fuel is being delivered above storage capacity.
 should CSTC-A proceed with its plans to directly
                                                                       Both commands provided technical comments,
 contribute $1.4 billion to the Afghan government through
                                                                       which SIGAR incorporated, as appropriate.
 fiscal year 2018 for ANP fuel.




For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
October 2, 2013


The Honorable Charles T. Hagel
Secretary of Defense
General Lloyd J. Austin III
Commander, U.S. Central Command
Rear Admiral Nicholas Kalathas
Commander, U.S. Central Command Joint Theater Support Contracting Command
General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force
Major General Dean J. Milner
Deputy Commanding General, Operations
  NATO Training Mission-Afghanistan
Major General Kevin R. Wendel
Deputy Commanding General, Combined Security Transition Command-Afghanistan/
  Ministerial Advisory Groups


This report discusses the results of SIGAR’s audit of U.S. oversight of fuel purchases for the
Afghan National Police (ANP). SIGAR is making 8 recommendations to improve oversight,
purchasing, accountability, and budgeting of U.S. funds for ANP fuel. These recommendations
will be increasingly important as the U.S. increases its direct funding to the Afghan government
for fuel purchases.
When preparing the final report, we considered comments from C-JTSCC and CSTC-A, which
are reproduced in appendices II and III. C-JTSCC agreed with both recommendations and
CSTC-A agreed with 5 of 6 recommendations. We understand that NTM-A/CSTC-A is currently
undergoing reorganization. This report should be forwarded to the appropriate office(s), as
necessary, once this reorganization is complete to ensure implementation of our
recommendations. SIGAR conducted this audit under the authority of Public Law No. 110-181,
as amended, and the Inspector General Act of 1978, as amended, and in accordance with
generally accepted government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 2 
C-JTSCC and CSTC-A Exercised Limited Oversight of U.S. Funds and Fuel Purchased for the ANP........................ 3 
CSTC-A Did Not Perform Risk Assessments or Verify the Afghan Government’s Use of $26.8 Million of Direct
Budgetary Contributions of U.S. Funds ...................................................................................................................... 6 

CSTC-A Overstated Funding Estimates for ANP Fuel by about $94 Million For Fiscal Year 2013 .......................... 8 
Conclusion.................................................................................................................................................................... 9 
Recommendations ...................................................................................................................................................... 9 
Agency Comments ..................................................................................................................................................... 10 
Appendix I - Scope and Methodology ....................................................................................................................... 12 
Appendix II - Agency Comments from U.S. Central Command Joint Theater Support Contracting Command ..... 14 

Appendix III - Agency Comments from Combined Security Transition Command-Afghanistan ............................. 16 
Appendix IV - Acknowledgments ............................................................................................................................... 23 


FIGURES

Figure 1 - Funding for ANP Fuel, Fiscal Years 2007 through 2013 (in millions) ..................................................... 2 
Figure 2 - ANP Helmand PHQ Monthly Fuel Orders, April 2010 through March 2013 (in thousands of liters) ..... 6 
Figure 3 - ANP Direct Contribution History ................................................................................................................. 7 
Figure 4 - Budget Request and Estimates for ANP Fuel, Fiscal Years 2013 through 2018 (in millions) ............... 8 




SIGAR 14-1-AR/Afghan National Police Fuel Program                                                                                                                      Page i
ABBREVIATIONS

      ANP             Afghan National Police
      ANSF            Afghan National Security Forces
      ASFF            Afghanistan Security Forces Fund

      C-JTSCC         U.S. Central Command Joint Theater Support Contracting Command
      CSTC-A          Combined Security Transition Command-Afghanistan
      DOD             Department of Defense
      FAR             Federal Acquisition Regulation
      MOI             Ministry of Interior
      PHQ             Provincial Police Headquarters

      SIGAR           Special Inspector General for Afghanistan Reconstruction




SIGAR 14-1-AR/Afghan National Police Fuel Program                                      Page ii
The Combined Security Transition Command-Afghanistan (CSTC-A)1 equips and trains the Afghan National
Security Forces (ANSF), which includes the Afghan National Police (ANP) and Afghan National Army.2 CSTC-A
uses the Afghanistan Security Forces Fund (ASFF) to provide the ANSF with equipment, supplies, and training,
as well as facility and infrastructure repair, renovation, and construction. A portion of the ASFF has been used
to purchase fuel for the ANSF.3
To purchase fuel for the ANSF, CSTC-A uses blanket purchase agreements4 issued by the U.S. Central
Command Joint Theater Support Contracting Command (C-JTSCC). C-JTSCC executes and oversees contracts
and exercises command and control over all contingency contracting forces operating in Afghanistan. Under
the blanket purchase agreements, C-JTSCC is the contracting officer organization responsible for administering
fuel contracts and CSTC-A provides the contracting officer representative responsible for the ordering and
accounting of fuel purchased for the ANSF.
In January 2013, we reported on fuel purchases for the Afghan National Army, which is under the Afghan
Ministry of Defense.5 That report identified weaknesses with CSTC-A’s processes governing the ordering,
receipt, and payment for fuel used to support vehicles, generators, and power plants. We also found that CSTC-
A budget requests for Afghan National Army fuel were potentially overstated because they were based on
unsupported data and that CSTC-A planned to provide $1 billion in direct contributions to the Ministry of
Defense despite known risks. SIGAR made six recommendations to improve accountability and transparency of
funds and fuel; CSTC-A concurred with all the recommendations.
We initiated this audit to evaluate U.S. oversight of fuel purchases for ANP, which is under the Ministry of
Interior (MOI). Specifically, this audit assesses:
          the extent to which C-JTSCC and CSTC-A provided oversight of ANP fuel purchases, deliveries, and
           consumption;
          CSTC-A’s efforts to provide direct contributions to the Afghan government to support ANP’s logistics
           transition; and
          the basis and support for CSTC-A’s funding request for fiscal year 2013 and its estimates from fiscal
           years 2014 through 2018.
To accomplish our objectives, we reviewed U.S. regulations and standards, MOI logistics policy, CSTC-A fuel
data, Regional Command Southwest6 fuel data, and U.S. budget data (obligations and disbursements); we also
interviewed officials at CSTC-A, C-JTSCC, Regional Command Southwest, MOI’s logistics department,7 Defense
Finance and Accounting Services and CSTC-A’s local national contractors. We conducted our work in Kabul,



1CSTC-A responsible is for managing the use of the Afghanistan Security Forces Fund resources, training and equipping
ANSF forces, and building the capacity of the Afghan Ministries of Interior and Defense.
2 The Afghan National Police serves as the single law enforcement agency for Afghanistan, which includes the Afghan
Uniformed Police, Afghan Border Police, Afghan National Civil Order Police, and other uniformed enablers (including
intelligence, anti-crime, counter narcotics, traffic, medical, and fire).
3 CSTC-A and C-JTSCC refer to fuel as “petroleum, oils and lubricants” or “POL”. We use “fuel” to describe POL throughout
the report. Some forms, regulations and agency comments will still refer to “POL”.
4   A blanket purchase agreement is a simplified method of filling requirements that may be needed on an ongoing basis.
5Special Inspector General for Afghanistan Reconstruction. Afghan National Army: Controls Over Fuel for Vehicles,
Generators, and Power Plants Need Strengthening to Prevent Fraud, Waste, and Abuse, Washington, D.C.: 2013.
6 The Regional Command Southwest is a subordinate command to the International Security Assistance Force; its mission

is to conduct counterinsurgency operations in partnership with the Afghan government in order to develop the ANSF and
improve governance and economic development. The areas of responsibility include Helmand and Nimroz provinces.
7 Known as the Material Management Center-Police, the logistics headquarters is housed under the MOI’s general logistics

department. The MOI logistics department performs control functions for the movement of equipment and material within
MOI.

SIGAR 14-1-AR/Afghan National Police Fuel Program                                                                   Page 1
Afghanistan from September 2012 to September 2013, in accordance with generally accepted government
auditing standards. A more detailed discussion of our scope and methodology is in appendix I.


BACKGROUND

Since 2005, Congress has appropriated almost $52.8 billion to the ASFF to train, equip and sustain the ANSF,
which includes the ANP and the Afghan National Army. ASFF appropriations allow for the purchase of ground
(or diesel) and aviation fuel for the ANP. Figure 1 shows that from fiscal years 2007 through 2012, CSTC-A
received approximately $499 million to purchase fuel for the ANP. For fiscal year 2013, CSTC-A requested
$134.6 million for a total of more than $633 million to purchase fuel over the 7-year period. In November
2012, CSTC-A agreed to directly contribute one-third of its fiscal year 2013 ANP fuel budget to the Afghan
government, which would allow MOI to purchase fuel for the ANP. By the end of 2014, when U.S. military forces
complete their draw down, CSTC-A plans to contribute all of its funds for ANP fuel directly to the Afghan
government.

              Figure 1 - Funding for ANP Fuel, Fiscal Years 2007 through 2013 (in millions)




              Source: Annual Fiscal Year Justifications for Overseas Contingency Operations – Afghanistan
              Security Forces Fund for 2007 through 2013.


To purchase fuel for the ANP, CSTC-A uses blanket purchase agreements issued by C-JTSCC. Since 2007,
C-JTSCC has established 17 blanket purchase agreements with vendors to provide fuel for the ANP and the
Afghan National Army. Currently, there are agreements with eight vendors to provide ground and aviation fuel.
C-JTSCC approves the monthly prices of fuel, and following that approval, CSTC-A uses the approved prices to
select vendors and order fuel. These vendors then deliver directly to approximately 70 authorized ANP
locations throughout Afghanistan. Once vendors deliver fuel to those 70 locations, the ANP stores and
distributes the fuel to ANP district and local level units.
To account for fuel purchases and deliveries, CSTC-A created a checkbook in Microsoft Access in March 2010
to record details of fuel orders received from and directly delivered by vendors to the ANP locations. CSTC-A
fuel ordering officers enter information into the checkbook, including the delivery location, fuel order number,
point of contact, fuel type, fuel quantity ordered and delivered, fuel price per liter, and invoice number.




SIGAR 14-1-AR/Afghan National Police Fuel Program                                                           Page 2
Policies and Regulations That Guide ANP Fuel Process
CSTC-A’s ANP fuel program is guided by both U.S. and Afghan policies and regulations – and which policy or
regulation applies depends on the stage of the fuel process. No single document provides comprehensive
guidance for or establishes controls over the fuel process, leaving the purchase of ANP fuel and oversight of
U.S. funds based on multiple sources.
Afghan Government Policies and Regulations
In January 2009, MOI issued its Process for the Management of Logistics Policy, which prescribes standards
and regulations for the logistics management process,8 and created a draft ANP fuel policy. Similar to the
Ministry of Defense’s logistics and petroleum, oils, and lubricants policies, MOI’s logistics policy requires the
following key documents to account for the request and receipt of fuel including:
          MOI Form 14―Materiel Request Form (requests fuel);
          MOI Form 8―Materiel Receiving Report (documents fuel quantity delivered);
          MOI Form 9―ANP Issue and Turn-In Order Form (issues fuel to ANP locations and serves as
           documentation of fuel quantity delivered).
MOI policy requires fuel requests be approved using consumption data and states that each ANP unit will
account for and provide inventory and consumption data to MOI. The policy also requires units to use
consumption data to forecast future fuel requirements.
U.S. Regulations and Other Guidance
In contrast, the U.S. government has contract regulations and internal control standards that guide the
oversight of blanket fuel purchase agreements and fuel purchases for ANP. Fuel prices and contract costs,
which are managed by C-JTSCC, are guided by U.S. regulations. The Federal Acquisition Regulation (FAR)9 and
C-JTSCC’s blanket purchase agreement guidance10 require CSTC-A, as the contracting officers representative
organization, to verify and accept the quantity and quality of fuel. DOD’s Material Inspection & Receiving
Report (DD-250) guidance requires inspection/acceptance prior to submitting vendor invoices for payment.11
Standards for Internal Control in the Federal Government12 provide the overall framework for establishing and
maintaining internal control and for identifying and addressing areas of greatest risk for fraud, waste, abuse,
and mismanagement. These standards note that managers should comprehensively identify risk and consider
all significant interactions between the entity and other parties as well as internal factors. CSTC-A also issued
standard operating procedures specifying that, prior to providing direct contributions, a risk assessment must
be conducted to ensure proper stewardship of U.S. funds.


C-JTSCC AND CSTC-A EXERCISED LIMITED OVERSIGHT OF U.S. FUNDS AND
FUEL PURCHASED FOR THE ANP

We found that C-JTSCC and CSTC-A had limited oversight of the contracting process for ANP fuel. C-JTSCC
approved vendors’ fuel prices that included costs that were unsupported or not allowed under the blanket



8 MOI logistics consists of ten classes of supplies, consisting of general supplies, food, fuel, clothing, weapons, ammunition,

medical and construction material, support equipment, and spare parts.
9   FAR 13.303-5(e)(5).
10   C-JTSCC blanket purchase agreement guidance Section II.7(2) Receipt for Deliveries.
11   DD Form 250 Guidance for the Contractor: Source Inspection or Acceptance.
12United States Government Accountability Office. Standards for Internal Control in the Federal Government. Washington
D.C.: 1999 (GAO/AIMD-00-21.3.1).

SIGAR 14-1-AR/Afghan National Police Fuel Program                                                                      Page 3
purchase agreements. Some vendors’ approved prices for ground fuel included costs for the market price13 of
fuel and transportation, but the vendors did not support these costs with additional documentation. In
addition, vendors charged two types of transportation fees—freight on board point and destination14—even
though the blanket purchase agreements only allowed for destination fees. In November 2012 and December
2012, 3 of the 4 ground fuel vendors for Kabul province submitted prices that included transportation fees for
ordered fuel leaving the origination point, which is prohibited under the blanket purchase agreements. The
total cost of these fees totaled approximately $520,000. C-JTSCC officials stated that they were not aware
vendors charged origination point fees, but also stated they considered all transportation costs allowable and
the fuel prices fair and reasonable. However, C-JTSCC officials did not provide any support to justify their
claims.
C-JTSCC approved vendor fuel prices that were not in compliance with the blanket purchase agreement. We
found that one vendor’s aviation fuel prices included costs that did not comply with the blanket purchase
agreement, such as Afghan Oil Authority Fees, customs duties, government storage fees, and other costs.15
According to the blanket purchase agreements and the U.S. Status of Forces Agreement with the Afghan
government, these costs are prohibited.16 For the period from November 2010 through February 2012, we
calculated that these costs amounted to approximately $25,900.17
We also found that CSTC-A mostly selected vendors for ground fuel that did not provide the lowest possible
price. Although CSTC-A is encouraged to select the lowest price and required to document any use of higher
prices,18 CSTC-A neither selected the vendor with the lowest fuel price each time nor documented its
justification for using the higher-priced vendors. For example, from November 2012 through December 2012,
CSTC-A did not choose the lowest-priced vendors for all of the 717 ground fuel orders in Kabul province. Based
on our analysis, the selection of the lowest-priced vendors would have saved almost $1 million in costs over
that 2-month period. According to C-JTSCC and CSTC-A officials, the higher-priced vendors were chosen
because the lower-priced vendors did not obtain exemptions from taxes and duties until January 2013.19 Still,
from January 2013 through March 2013, the two lowest-priced vendors received only 435 of the 1,361 (or 32
percent) of fuel orders for ANP.




13 Vendors provide the market price per metric ton of fuel each month; they are not required to support how, or from where,

they derived the market price. For example, in November and December 2012, the market price per metric ton of fuel per
vendor ranged from $300 to $1,150.
14For shipments originating outside of the U.S. for overseas delivery, the Federal Acquisition Regulation allows for freight
on board point or destination fees. Freight on board point generally means that the buyer (here, the U.S.) pays costs when
goods and services (i.e., fuel) leave the origination point; conversely, freight on board destination means that the U.S. does
not pay until the vendor delivers the fuel. The blanket purchase agreements note clearly only freight on board destination
fees should apply.
15 In May 2013, SIGAR reported that U.S. agencies erroneously reimbursed contractors for Afghan taxes. See Special
Inspector General for Afghanistan Reconstruction. Taxes: Afghan Government Has Levied Nearly a Billion Dollars in
Business Taxes on Contractors Supporting U.S. Government Efforts in Afghanistan, Washington, D.C.: 2013 (SIGAR Audit
13-8).
16Blanket Purchase Agreement, Section 3.1; Agreement regarding the Status of U.S. Military and Civilian Personnel of the
U.S. Department of Defense Present in Afghanistan in connection with Cooperative Efforts in Response to Terrorism,
Humanitarian and Civic Assistance, Military Training and Exercises, and Other Activities, State Dept. No. 03-67, 2003 WL
21754316 (Treaty) (SOFA) (“The government of the United States of America, its military and civilian personnel, contractors
and contractor personnel shall not be liable to pay any tax or similar charge assessed within Afghanistan.”).
17 SIGAR’s calculation was based on CSTC-A ordering all aviation fuel worth approximately $208,226 from the vendor

during this time period, which represented Afghan taxes and fees and accounted for 12.4 percent of the vendor’s total
approved fuel price.
18FAR 13.303-2(b)(2); Blanket Purchase Agreement, Statement of Work, Section 2.14.1; and C-JTSCC Blanket Purchase
Agreement Guidance, Section II.6.
19   An exemption letter is required for a contractor to be exempt from Afghanistan taxes and duties.

SIGAR 14-1-AR/Afghan National Police Fuel Program                                                                      Page 4
Without Consumption and Storage Capacity Data, CSTC-A Ordered $4.6 Million
Dollars Worth of Excess Fuel for Helmand Provincial Police Headquarters
From April 2010 to March 2013, CSTC-A ordered more than 9.8 million liters of fuel, worth $17.6 million, for
Helmand Provincial Police Headquarters (PHQ). The blanket purchase agreements require fuel to be delivered
to only approved locations and into storage tanks designed for fuel storage. In September 2012, however,
CSTC-A identified questionable and potentially fraudulent fuel deliveries to the PHQ. This involved the
purported delivery of volumes of diesel fuel that exceeded Helmand PHQ’s storage capacity.
MOI guidance requires that fuel consumption data be provided to justify ANP fuel needs. CSTC-A, however,
does not require its staff to use consumption data from MOI when placing fuel orders.20 In addition, CSTC-A
does not have complete storage capacity information for each ANP location authorized to receive fuel directly
from vendors. This resulted in instances where CSTC-A ordered and purchased the delivery of more fuel than
could be stored at Helmand PHQ. For example, Regional Command Southwest officials, who have more contact
with Helmand PHQ than CSTC-A fuel ordering officers because of their presence within the province, told us
that Helmand PHQ had a 160,000 liter fuel storage capacity for diesel fuel. CSTC-A’s checkbook recorded that
vendors delivered diesel fuel in excess of 160,000 liters on 24 days over a 28-month period from June 2010
through September 2012. The deliveries on those 24 days totaled about 2.4 million liters and were worth 4.6
million. CSTC-A officials told us that Helmand PHQ’s insufficient storage for all of the fuel to be delivered may
have resulted in the fuel being delivered to a local market instead.
Email communications from CSTC-A officials showed that by September 2012, CSTC-A fuel ordering officers
believed the unusually large monthly fuel orders “may be a case of criminal fraud.” In September 2012, these
fuel ordering officers referred the suspected fraud to an Army Criminal Investigation Division official, who
informed them he could not investigate due to a lack of authority to bring any charges against local national or
Afghan officials.
In October 2012, CSTC-A officials reduced the amount of fuel delivered to Helmand PHQ. In response, Regional
Command Southwest officials, working with ANP personnel, provided CSTC-A officials with a spreadsheet that
purportedly demonstrated Helmand PHQ actually had a shortage of fuel. To prove this, Regional Command
Southwest officials stated they summarized MOI forms provided by ANP, which showed that Helmand PHQ
distributed more fuel to district locations than it received from vendors. For example, Regional Command
Southwest’s spreadsheet showed that from March 20, 2012 to April 20, 2012,21 Helmand PHQ distributed
439,836 liters after receiving only 415,000 liters from vendors, resulting in a shortage of 24,386 liters.
However, our analysis of CSTC-A’s checkbook showed that Regional Command Southwest officials’ claims of
Helmand PHQ’s fuel shortage lacked credibility because CSTC-A reported more fuel being delivered to Helmand
PHQ than claimed by the Regional Command Southwest officials. We found that Helmand PHQ received
535,000 liters of fuel from vendors, approximately 120,000 liters more than Regional Command Southwest
officials reported to CSTC-A officials. In addition, CSTC-A officials were not present at most delivery points and
did not receive MOI forms that would allow them to verify when, how and if Helmand PHQ distributed fuel to the
locations it claimed. CSTC-A officials should have identified the significant difference between the volume of
fuel reported by Regional Command Southwest officials for that period and the volume reported delivered by
fuel vendors. As noted in figure 2, by December 2012, CSTC-A increased the monthly fuel deliveries to
Helmand PHQ to 300,000 liters without addressing the fuel requirement needed or investigating the fraud
allegations.




20   All fuel requests are approved by MOI and submitted to CSTC-A.
21The   30-day Afghan month is based on the Afghan year, which starts on March, 20th.

SIGAR 14-1-AR/Afghan National Police Fuel Program                                                          Page 5
Figure 2 - ANP Helmand PHQ Monthly Fuel Orders, April 2010 through March 2013 (in thousands of liters)




Source: SIGAR analysis of CSTC-A Fuel Order Checkbook

CSTC-A not only resumed placing large orders for Helmand PHQ by December 2012, but redefined its suspicion
of fraud as “ordering and accounting errors.” In November 2012, a CSTC-A brigadier general sent a letter to a
MOI brigadier general that characterized the Helmand PHQ case as an “isolated incident” and requested MOI
to conduct an audit of Helmand PHQ’s fuel management procedures.22 As of May 2013, the results of the MOI
audit were not available, but the Combined Joint Interagency Task Force-Shafafiyat, whose representatives
accompanied MOI on the audit, identified weaknesses in Helmand PHQ’s fuel management and concluded
that a follow up visit would be needed. As of May 2013, no other audit or investigation had been conducted
into whether any U.S.-purchased fuel was lost to waste, fraud, or abuse – including the possible diversion of
excess fuel to a local market.23


CSTC-A DID NOT PERFORM RISK ASSESSMENTS OR VERIFY THE AFGHAN
GOVERNMENT’S USE OF $26.8 MILLION OF DIRECT BUDGETARY
CONTRIBUTIONS OF U.S. FUNDS

Since October 2011, CSTC-A has directly contributed $26.8 million of U.S. funds to the Afghan government and
plans to directly contribute another $1.2 billion over the next 5 years for the purchase of fuel for ANP. CSTC-A’s
standard operating procedures require six steps be taken prior to the disbursement of direct contributions,
including a risk assessment and steps to verify how direct contributions are spent. However, we could not find
evidence that CSTC-A officials conducted the required risk assessment to determine MOI’s readiness to
assume all responsibilities for capacity development and stewardship of U.S. funds. Although CSTC-A had one
power point slide that referred to a risk assessment and indicated that direct contributions for ANP fuel were
rated as “high-risk,” CSTC-A officials approved $243 million for direct contributions to the Afghan government
for fiscal year 2014. CSTC-A officials stated they did not have a plan to mitigate the risk and could not provide
further documentation or explanation for the rating. Additionally, in April 2012, DOD reported that the “ANP

22   Two other CSTC-A generals issued similar letters between November 2012 and January 2013.
23   On May 7, 2013, we referred this matter to SIGAR’s Investigations Directorate for further examination.

SIGAR 14-1-AR/Afghan National Police Fuel Program                                                             Page 6
logistics system requires significant coalition assistance at the regional level and below in order to effectively
sustain the ANP.” Similarly, in December 2012, DOD reported that although the ANP logistics system has made
steady progress toward self-sufficiency, major challenges remain. According to its July 2013 report, DOD does
not expect MOI to be ready to assume complete responsibility for all logistics functions until the third quarter of
2014.24
Although CSTC-A did not have a plan to mitigate the risk of waste, fraud, and abuse of its direct funding to the
Afghan government, it continued to provide direct funding. As shown in figure 3, between October 2011 and
August 2012, CSTC-A transferred the initial $10.6 million to the Afghan government for MOI to purchase fuel
for ANP. In February and September 2012, the Army Audit Agency reported that limited controls were in place
to ensure visibility and accountability over ASFF direct contributions and that a lack of documentation
prevented the audit of the initial direct funding. In December 2012, CSTC-A transferred another $16.2 million
to purchase fuel for ANP, to cover the period from December 21, 2012 through December 20, 2013. In
October 2012, CSTC-A revised its direct contribution standard operating procedures to improve controls by
addressing issues raised by the U.S. Army Audit Agency. The procedures require CSTC-A staff to perform
periodic reconciliations, audits, and reporting of how MOI spends U.S. funds.25 In May 2013, CSTC-A officials
stated they will not implement the revised procedures to determine how MOI uses the $16.2 million until MOI
awards contracts to initiate its own purchase of fuel for ANP.26 As a result, CSTC-A cannot yet determine how
the Afghan government used the additional $16.2 million to purchase fuel, and we could not evaluate the
effectiveness of CSTC-A’s new control procedures.

Figure 3 - ANP Direct Contribution History




Source: SIGAR analysis of key contracting, assessment, and audit events.
Notes: AAA–U.S. Army Audit Agency; SOP–Standard Operating Procedures.




24   DOD Report on Progress Toward Security and Stability in Afghanistan, dated April 2012, December 2012, and July 2013.
25In November 2012, the International Security Assistance Force, CSTC-A, and Afghanistan Ministries of Interior, Finance,
and Commerce and Industry signed the Administrative Procedures for Bulk Fuel Management Transition (Procedures). The
Procedures transition financing, contracting, and ordering ANP fuel from the Coalition to the Afghan government and
require CSTC-A to audit the ANP fuel process and MOI to audit the ANP fuel distribution, consumption, supply, and
accountability. The Procedures also require MOI to provide storage capacity for fuel and documentation to support vendor
payments to CSTC-A.
26   During the time of our fieldwork, MOI had not awarded contracts to purchase fuel for ANP.

SIGAR 14-1-AR/Afghan National Police Fuel Program                                                                  Page 7
CSTC-A OVERSTATED FUNDING ESTIMATES FOR ANP FUEL BY ABOUT $94
MILLION FOR FISCAL YEAR 2013

The basis for CSTC-A’s fiscal year 2013 ANP fuel funding request and future funding estimates is questionable.
As shown in figure 4, in fiscal year 2013, CSTC-A requested $134.6 million to purchase fuel for ANP, one-third
(about $45 million) of which will be a direct contribution to the Afghan government.27 CSTC-A also plans to
provide all of the fiscal years 2014 through 2018 fuel funding requirements—currently estimated by CSTC-A at
more than $1.2 billion over those 5 years—directly to the Afghan government. Although MOI guidance requires
ANP units to track their fuel consumption to determine future fuel requirements, CSTC-A did not receive or use
ANP unit consumption data in developing funding requirements for ANP fuel. Instead, CSTC-A used previously
reported ANP fuel orders and assumptions to estimate future requirements for ANP fuel. However, CSTC-A did
not provide support for those assumptions as required by federal internal control standards.28

                           Figure 4 - Budget Request and Estimates for ANP Fuel,
                           Fiscal Years 2013 through 2018 (in millions)




                           Source: Fiscal Year Justification for Overseas Contingency
                           Operations – Afghanistan Security Forces Fund for 2013 and
                           fiscal years 2014-2018 Program Objective Memorandum
                           Afghanistan Security Forces Fund Appropriation Requirements
                           and Resourcing Development Sheet.

For example, CSTC-A officials did not have reliable information on the number of vehicles and generators or
their use, at ANP locations. CSTC-A officials assumed ANP’s fuel requirements would remain steady after the
U.S. military role ceases by the end of 2014. To explain their methodology, CSTC-A officials directed us to a
June 2011 briefing slide and September 2012 memo that notes costs for fuel are based on last year’s
“consumption,” multiplied by a “fielding inflation factor” and an “operational tempo factor.” According to CSTC-

27On November 13, 2012, the U.S. and Afghan governments signed Administrative Procedures for the Bulk Fuel
Management Transition, which established a one-third direct contribution maximum of $62.6 million for fiscal year 2013.
The maximum contribution is based on an estimated total annual ANP fuel requirement of $189.6 million, which includes
an unsupported projected annual “ANP Operational Tempo” increase of 16 percent.
28 United States Government Accountability Office. Standards for Internal Control in the Federal Government: 1999

(GAO/AIMD-00-21.3.1). The Control Activities section on Appropriate Documentation of Transactions and Internal Control
states that internal control and all transactions need to be clearly documented.

SIGAR 14-1-AR/Afghan National Police Fuel Program                                                                 Page 8
A officials, no other information existed on the fielding and operational tempo factor notations. Further, CSTC-A
officials could not provide additional information or documentation that would better support the $134.6
million request or the future estimates. Although the slide used the term “consumption,” CSTC-A officials
confirmed this actually meant past fuel orders. As a result, CSTC-A has estimated a combined $1.4 billion of
funding requirements for the six years, which are based on the ANP’s past orders, including those questioned
at Helmand PHQ. Relying on past orders fails to take into account whether some fuel was lost, stolen, or not
used as intended.
Based on our analysis, CSTC-A overstated its fiscal year 2013 funding request for ANP fuel by approximately
$94 million, as it had a significant amount of the previous year’s funds available well into fiscal year 2013.29
CSTC-A requested $134.6 million for fiscal year 2013, and based on ANP’s fiscal year 2012 orders, we
determined that the average value of fuel orders per month was $13.5 million. By the end of fiscal year 2012,
however, CSTC-A had its entire fiscal year 2012 budget—$124.8 million—still available. At a rate of $13.5
million per month, $124.8 million will cover 9 months’ worth of fuel in fiscal year 2013—from October 2012
through June 2013. The remaining 3 months of fiscal year 2013, July 2013 through September 2013, will
require approximately $40 million. In other words, CSTC-A needs $40 million of its $134 million request to
cover the 3-month period, leaving $94 million that would be available for other uses.


CONCLUSION

The ANP fuel program managed by C-JTSCC and CSTC-A remains at high risk of loss, theft, or misuse of U.S.
funds and purchased fuel and, if not improved, may increasingly place large amounts of U.S. funds at risk of
fraud, waste, and abuse. Until C-JTSCC and CSTC-A improve controls, verify fuel prices, and determine that fuel
orders are in line with consumption and storage capacities at ANP sites, neither entity can assure that U.S.
funds and fuel are used as intended. Moreover, without consumption and storage capacity information from
MOI, CSTC-A has no basis for assuming that ANP fuel orders are legitimate. Until CSTC-A performs a risk
assessment and implements effective audit and other oversight procedures, to mitigate the risk associated
with direct budgetary contributions of U.S. funds to the Afghan government to purchase fuel for ANP, it will
continue to provide significant funds without any assurance that MOI can provide proper stewardship of U.S.
funds. Lastly, without a sound methodology to determine budget estimates that includes consumption data,
CSTC-A will not be able to accurately identify ANP fuel requirements. Continuing this approach will likely result
in significant amounts of the unused funds being available well into subsequent fiscal years and CSTC-A may
continue to provide Congress with inaccurate budget requests and estimates for ANP fuel.


RECOMMENDATIONS

To ensure the reasonableness of prices for ANP fuel, we recommend that the Commander of C-JTSCC:
     1. Review and determine whether all vendor fuel prices since 2007, and related transportation costs and
        Afghan taxes, fees and duties, were allowable and seek recovery of any disallowed costs.
     2. Develop guidance that details the factors to be considered when not selecting the lowest-priced fuel
        vendors, and enforce C-JTSCC’s guidance requiring justification, in writing, for the selection of higher-
        priced vendors when lower-cost vendors are available.
To improve oversight of U.S. funding for ANP fuel, we recommend that the Commander of CSTC-A:
     3. Obtain fuel consumption and storage capacity data for each of the 70 authorized ANP locations
        receiving fuel directly from vendors.

29The Afghanistan Security Forces Fund is a two-year appropriation. For instance, the fiscal year 2012 funds remain
available from October 2011 through September 2013.

SIGAR 14-1-AR/Afghan National Police Fuel Program                                                                 Page 9
    4. Ensure that consumption data is used by MOI to approve all fuel orders.
    5. Review fuel ordering levels, consumption data, and storage capacity for each of the 70 ANP locations
       and determine whether other ANP locations are receiving fuel above their storage capacity. If fuel
       orders are above storage capacity, subsequent fuel orders for that location should be adjusted to not
       exceed storage capacity and excess fuel deliveries should be investigated.
To improve compliance with CSTC-A direct contribution standard operating procedures, we recommend that
the Commander of CSTC-A:
    6. Perform the required risk assessments and monitor the effectiveness of the new reconciliation,
       auditing, and reporting requirements and document these actions.
To improve ANP fuel budget estimates for the current and future fiscal years, we recommend that the
Commander of CSTC-A:
    7. Reduce the fiscal year 2013 request to that required for 3 months--$ 40.6 million—to correspond with
       the 12-month fiscal year fuel requirement for ANP, which ends September 30, 2013 and put the
       remaining $94 million to better use within Afghanistan Security Forces Fund.
    8. Obtain and use fuel consumption data from all ANP units as a basis to revise fuel budget estimates for
       fiscal years 2014 through 2018.


AGENCY COMMENTS

SIGAR received formal comments on a draft of this report from C-JTSCC and CSTC-A. C-JTSCC concurred with
the two recommendations addressed to it and CSTC-A concurred with five of the six recommendations
addressed to it. Both C-JTSCC and CSTC-A provided additional technical comments, which we incorporated into
the report, as appropriate.
Although C-JTSCC concurred with the recommendation to review and determine whether vendor fuel prices
were allowable, it also stated that all fuel prices and related transportation costs and Afghan taxes, fees and
duties were allowable under the blanket purchase agreements since 2007. According to C-JTSCC, the
contractors’ submitted prices were fixed, and no costs other than the fixed rates were allowable or ever paid in
any of the blanket purchase agreements. However, we found that the monthly fixed prices, approved by C-
JTSCC, included costs that were unallowable under the blanket purchase agreement, including transportation
costs for freight on board point, Afghan Oil Authority fees, customs duties, government storage fees, 2-percent
business receipt tax, and municipality and toll charges. Because only freight on board destination costs were
allowable and the fuel deliveries were exempt from Afghan taxes and fees per blanket purchase agreements
and the U.S.–Afghan Status of Forces Agreement, we maintain that these costs should not be charged to the
government as part of the fixed prices, and should be recovered.
In its comments, CSTC-A noted several actions it is taking to address our recommendations. For example,
CSTC-A concurred with SIGAR’s recommendation to ensure that consumption data is used by MOI to approve
all fuel orders, and CSTC-A stated that it has published an approved schedule to conduct periodic audits of the
entire fuel order approval process to ensure MOI continues to use appropriate consumption documentation to
validate fuel orders. Regarding SIGAR’s recommendation to perform the required risk assessments, CSTC-A
stated it would treat POL as a “high-risk program,” plan audits, and require the ANP to track these transition
POL contracts to allow better oversight and accountability of funds. However, we maintain that a risk
assessment is needed to ensure that ANP has the capacity and capability to manage U.S. funds and fuel
purchases. With regard to SIGAR’s recommendation to reduce the fiscal year 2013 request, CSTC-A agreed to
lower the requirement to $40.6 million and put the remaining $94 million to better use within ASFF. CSTC-A



SIGAR 14-1-AR/Afghan National Police Fuel Program                                                       Page 10
added that before releasing direct contributions funds it will apply due diligence to the estimated amounts
required.
Finally, CSTC-A concurred with our recommendation to obtain and use fuel consumption data from all ANP
units as a basis for revising fuel budget estimates for fiscal years 2014 through 2018. Moreover, CSTC-A
stated that if an ANP unit is suspected of diverting fuel to unapproved storage locations, it would suspend fuel
ordering until the discrepancy is resolved.
CSTC-A did not agree with our recommendation to review fuel ordering levels, consumption data, and storage
capacity data to ensure that fuel is not delivered in excess of an ANP sites’ fuel storage capacity. CSTC-A stated
that because this information is not real-time data, it does not facilitate ordering decisions. Moreover, CSTC-A
stated it is unrealistic in the current operating environment to monitor fuel tank status for each of the units
receiving direct delivery of fuel. We concur with CSTC-A on this point, and did not recommend that CSTC-A do
so. CSTC-A’s explanation for its nonoccurrence with Recommendation 5 does not address the concerns raised
by SIGAR. In particular, CSTC-A stated that “ANP units have been advised to increase the frequency of ordering
to replace fuel consumed over an established period of days, in order to mitigate the risk of placing large,
established quantity orders on a set timetable.” The problem with this approach is that it can still lead to a unit
placing orders that exceed storage capacity, as evidenced in this report’s discussion of the Helmand PHQ.
Therefore, we maintain that it is vital for CSTC-A to review the consumption data and storage capacity data to
establish fuel ordering levels and determine if fuel deliveries are in excess of the fuel storage capacity of each
ANP unit.




SIGAR 14-1-AR/Afghan National Police Fuel Program                                                          Page 11
APPENDIX I - SCOPE AND METHODOLOGY

In September 2012, the Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR)
identified two issues during its audit of the Afghan National Army’s logistics capability for fuel. The two issues
warranted immediate attention related to the short timeframes for the transfer of Afghan National Army fuel
responsibilities and the direct transfer of U.S. funds to the Afghan government and challenges with upcoming
budget decisions (see SIGAR Interim ANA fuel Report 12-14 issued September 10, 2012 and final Afghan National
Army fuel Audit Report 13-4 issued January 2013). We initiated this audit to evaluate U.S. oversight of fuel
purchases for the Afghan National Police (ANP). This report assesses (1) the extent to which U.S. Central
Command Joint Theatre Support Contracting Command (C-JTSCC) and the Combined Security Transition
Command-Afghanistan (CSTC-A) provided oversight of ANP fuel purchases, deliveries, and consumption, (2)
CSTC-A’s efforts to provide direct contributions to the Afghan government to support ANP’s logistics transition,
and (3) the basis and support of CSTC-A’s funding request for fiscal year 2013 and its estimates from fiscal
years 2014 through 2018 for ANP fuel.
To assess C-JTSCC’s and CSTC-A’s oversight of ANP fuel purchases, deliveries, and consumption, we reviewed
the Ministry of Interior (MOI) Logistics Policy, related Department of Defense (DOD) guidance, the Federal
Acquisition Regulation, and the required MOI and DOD forms and other documentation. We also considered the
fuel blanket purchase agreements awarded in November 2012 to evaluate CSTC-A revised policies and
procedures developed to address performance and accountability issues identified during our Afghan National
Army fuel audit. We also reviewed the U.S. Army Audit Agency audit of CSTC-A’s direct contributions and
interviewed CSTC-A, C-JSTCC, Defense Finance and Accounting Services, MOI, and U.S. Army Audit Agency
officials to obtain an understanding of controls in place for the ANP fuel process.
To assess CSTC-A’s efforts to provide direct contributions to the Afghan government to support ANP’s logistics
transition, we reviewed CSTC-A’s direct contribution standard operating procedures, fragmentary orders, risk
assessments, and direct contribution letters, DOD’s MOI capability milestone ratings, and the U.S. and Afghan
bulk fuel management transition administrative procedures. We reviewed and analyzed MOI logistics policies
and procedures, blanket purchase agreements, and CSTC-A, U.S. Army Audit Agency, and Task Force 2010 fuel
presentation slides. We also analyzed CSTC-A reported issues and DOD Inspector General audit reports and
interviewed officials at CSTC-A, MOI’s Material Management Center, Task Force 2010, and Defense Logistics
Agency to obtain the status of identified challenges and issues to develop a capable and sustainable ANP fuel
processes, and to determine the level of risk associated with ANP fuel.
To assess the basis and support of CSTC-A’s funding request for fiscal year 2013 and its estimates from
fiscal years 2014 through 2018 for ANP fuel, we examined DOD’s Afghanistan Security Forces Fund fiscal year
2012 and 2013 budget justifications, CSTC-A’s Afghanistan Security Forces Fund Requirements and
Resourcing Development Sheets for fiscal years 2013-2017 and 2014-2018, and the available supporting
documentation used to estimate annual funding levels. We interviewed CSTC-A officials and analyzed CSTC-A’s
ANP fuel ordering checkbook and CSTC-A, C-JTSCC, and Defense Finance and Accounting Service’s available fuel
financial data.
In an attempt to assess the reliability of the ANP fuel and financial related data, we reviewed and attempted to
reconcile (1) CSTC-A’s fuel ordering office checkbook of invoiced ANP fuel orders, (2) C-JTSCC’s purchase
requisition and commitment reported ANSF fuel order calls for payment, (3) CSTC-A’s ANSF fuel vendor
obligations and payments, and (4) Defense Finance and Accounting Services’ computer-generated payment
data. Due to no ANSF fuel data for fiscal years 2005, ANSF fuel data only for fiscal years 2006-2009, and differences
in ANP fuel data for fiscal years 2011 to current, we determined the available data was either not adequately
supported or not reliable for the intended purposes of our audit. However, we assessed internal controls over
the ANP fuel processes and considered allegations of fraud through review of CSTC-A briefings and
documentation of fuel contracts, orders, and payments. The results of our reconciliation and assessments are
included in the body of this report.


SIGAR 14-1-AR/Afghan National Police Fuel Program                                                            Page 12
We conducted our audit work in Kabul, Afghanistan from September 2012 to September 2013, in accordance
with generally accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. SIGAR conducted this audit under the authority of
Public Law No. 110-181, as amended, and the Inspector General Act of 1978, as amended.




SIGAR 14-1-AR/Afghan National Police Fuel Program                                                      Page 13
APPENDIX II - AGENCY COMMENTS FROM U.S. CENTRAL COMMAND JOINT
THEATER SUPPORT CONTRACTING COMMAND



                                                       HEADQUARTERS
                                      CENTCOM JOINT THEATER SUPPORT CONTRACTING COMMAND
                                                         CAMP PHOENIX
                                                          APO AE 09320



            CJTSCC/DCO                                                                           17 September 2013

            MEMORANDUM FOR CCIG

            SUBJECT: SIGAR Draft Report 13-20 - "ANP Fuel program - concerted effort needed to strengthen
            oversighf'

            1. It was recommended that C-JTSCC review and determine whether all vendor fuel prices since 2007,
            and related transportation costs and Afghan taxes, fees and duties. were allowable and seek recovery
            of any disallowed costs. Response: Concur: C-JTSCC reviewed and determned that all vendor fuel
            prices under the previous blanket purchase agreements (SPAs) and related transportation costs and
            Afghan taxes, fees and duties, were allowable.

              a . The contracting vehicle used to procure fuel in support of the Afghan National Army and Afghan
              National Police until 31 August 2013 was a blanket purchase agreement (SPA). Within the SPAs,
              contractors submitted price lists at a fixed price per liter of fuel for each of the Afghan Districts. The
              fixed price did not segregate various costs that the contractor may incur. Instead it was a fixed rate
              for the delivery of fuel to a particular district. No costs other than the fixed rates were allowable or
              ever paid in any of the blanket purchase agreements.

              b. Paragraph 1.1.1 in the Statement of Work states the fixed price includes delivery to the
              destination. None of the fuel BPA contractors ever invoiced for or were paid transportation costs
              other than those induded in their fixed price. The memorandum for record from GSCC dated 21
              May 2013, titled "SIGAR Statement of Facts Oversight of Afghan National Police Fuel Management
              (070A)" fu lly addresses in paragraph 3 that the government paid only for the fuel delivered at the
              agreed upon rate per liter. The government never paid additional delil.ery costs for the fuel.

              c. All fuel deli~ries were exempt from Afghanistan taxes. levies, and duties since the commodity
              was purchased by the US Government for use by GIRoA, in accordance with FAR 52.229-6. DFARS
              252.229-7000, and local clause 952.225-0019. As such, contractors were instructed to not include
              any taxes, levies, or duties in the calculation ci their pricing. Also, paragraph 3.1 in the Statement of
              Work explicitly prohibited contra ctors from including any Afghan taxes, levies, or duties in the price of
              their fuel. The fuel BPA contractors never invoiced for or were reimbursed for taxes, levies, or
              duties. The government only paid for the fuel that was delivered at the agreed upon rate per liter.

            2 . It was recommended that C-JTSCC develop guidance that details the factors to be considered when
            not selecting the lowest-priced vendors to promote adherence to C-JTSCC's guidance requiring
            justification. in writing, on the selection ci higher-priced vendors when lower-cost vendors are available.
            Response: Concur. C-JTSCC addressed the factors considered when not selecting the lowest-priced
            and identified that the contractor has the "right to refuse" accepting BPA calls. C-JTSCC also offered
            scenarios when the contractor might choose to do so.

               a. BPA calls were always offered first to the lowest priced BPA holder. However, in a blanket
               purchase agreement, the contractor has the right to refuse accepting a BPA call. Typically they
               would do so because of a low inventory of fuel, they were already executing multiple calls and did
               not have the operational capability, or they experienced other internal factors that prevented them
               from accepting the BPA calls. When this occurred, the ordering officer would plare the order with the
               next lowest priced contractor.




SIGAR 14-1-AR/Afghan National Police Fuel Program                                                                          Page 14
SIGAR 14-1-AR/Afghan National Police Fuel Program   Page 15
APPENDIX III - AGENCY COMMENTS FROM COMBINED SECURITY TRANSITION
COMMAND-AFGHANISTAN




SIGAR 14-1-AR/Afghan National Police Fuel Program           Page 16
                                                    See SIGAR
                                                    Comment 1




SIGAR 14-1-AR/Afghan National Police Fuel Program       Page 17
                                  CSTC-A MAG DRAFT REPORT RESPONSE
             "Afghan National Police Fuel Program: Concerted Efforts Needed to Stren&rthen Oversight of
                                                   U.S. Funds"
                                            (SIGAR Draft Report 13-20)
           2. Recommendati on 4:
           The Commander, Combined Security Transition Command-Afghanistan, ensure that
           consumption data is used by Mol to approve all fuel orders.

           CSTC-A response:

                  a . CSTC-A concurs with the SIGAR recommendation to ensure that consumption data is
                      used by Mol to approve al l fuel orders.

                  b. Per IJC Daily FRAGO 17-08-13, CSTC-A published an approved schedule to conduct
                     periodic audits of the entire fu.el order approval process, to be conducted at the middle
                     and end of fiscal years in conjunction with both the Mol Inspector General and
                     Shafafiyat. CSTC-A will ensure Mol continues to utilize appropriate consumption
                     documentation to validate fuel orders.

           3. Recommendation 5:
           The Commander, Combined Security Transition Command-Afghanistan, review fuel ordering
           levels, consumption data, and storage capacity for each of the 145 ANP locations and detennine
           whether other ANP locations are receiving fuel above their storage capacity. If fuel orders are
           above storage capacity, subsequent fuel orders for that location should be adjusted to not exceed
           storage capacity and excess fuel deliveries should be investigated.

            CSTC-A response:

                  a. CSTC-A does not concur with the SIGAR recommendation to review fuel ordering
                     levels, consumption data and storage capacity for each of the 145 ANP locations and
                     determine whether other ANP locations are receiving fuel above their storage capacity.

                  b. Per DCOM-SPO FRAGO 12-141, coalition advisors are required to upload ANSF fuel
                     consumption data on a montbly basis. However, because this information is not real-
                     time data, it does not facilitate ordering decisions, especially for upcoming
                     requirements. It is unrealistic, in the current operating environment, to require CSTC-
                     A to monitor tank status for each of the 70 ANP units receiving direct delivery of fuel
                     due to the dearth of reliable, up-to-date inventory data. Moreover, because of the delay
                     in Mol Form 14 approval, any information provided by units at the time of submission
                     is no longer accurate. It is incumbent upon the ANP internal supply chain managers to
                     maintain positive inventory control on Mol Form 1235 (Bulk Fuel Physical Inventory
                     Document).

                  c. Per Mol Fuel Policy (2.1.1), each site is provided with a validated fuel allocation by
                     MMC-P. This is a montbly maximum amount of fuel that is allowed to be ordered by
                     each unit. This allocation is calculated by multiplying each vehicle and generator on

                                                       Page 2 of5




SIGAR 14-1-AR/Afghan National Police Fuel Program                                                                Page 18
                                  CSTC-A MAG DRAFT REPORT RESPONSE
             "Afghan National Police Fuel Program: Concerted Efforts Needed to Strengthen Oversight of
                                                      U.S. Funds"
                                             (SIGAR Draft Report 13-20)
                    the individual unit's tashkil by a standard fuel consumption factor for each item. Any
                    site that attempts to exceed this allocation will be denied fuel until the next month. A
                    site may justify exceeding this amount only by exception and with strong justification
                    showing an increase in mission or other extenuating circumstances. Any increase
                    must be approved by the Mol Director of Logistics.

                  d. CSTC-A, via Log Sync VTC, advocated the establishment of individual Inventory
                     Management Plans for each wut. T his guidance will be incorporated into the Mol Fuel
                     Policy currently under review. ANP units have been advised to establish an
                     emergency fuel reserve level as well as emergency reorder points. ANP units have also
                     been advised to increase the frequency of ordering to replace fuel consumed over an
                     established period of days unique to each unit's need. This ordering method will
                     mitigate the risk of placing large, established quantity orders on a set timetable, which
                     can lead to a unit placing orders which exceed storage capacity.

                  e. If an ANP unit is suspected of diverting fuel to unapproved storage locations, CSTC-A
                     will suspend fuel ordering for that unit until the discrepancy can be resolved. At this
                     point, CSTC-A is required to verify that the fuel order in question fulfills an
                     operational need and is not based upon allocation alone.

           4. Recommendation 6:
           The Commander, Combined Security Transition Command-Afghanistan, perform the required
           risk assessments and monitor the effectiveness of the new reconciliation, auditing, and reporting
           requirements and document these actions.

               CSTC-A response:

                  a. CSTC-A concurs with the SIGAR recommendation to perform the required risk
                     assessments and monitor the effectiveness of the new reconciliation, auditing, and
                     reporting requirements and document these actions.

                  b. Currently, CJIA TF-Shafafiyat conducts audits on POL provided via US contracts to
                     the ANP. The ANP have not yet awarded the fuel contract planned for FY13. As
                     such, CSTC-A has not funded ANP fuel via direct contributions. Upon POL contract
                     transition to direct contributions, most likely during FY14, CSTC-A CJ8 will treat
                     POL as a 'high-risk program' and will conduct the requisite periodic audits. The
                     current plan is to require the ANP to track these transition POL contracts in AFMIS to
                     allow better oversight and accountability of funds.




                                                       Page 3 of5




SIGAR 14-1-AR/Afghan National Police Fuel Program                                                                Page 19
                                    CSTC-A MAG DRAFf REPORT RESPONSE
             "Afghan National Police Fuel Program: Concerted Efforts Needed to Strengthen Oversight of
                                                   U.S. Funds"
                                            (SIGAR Draft Report 13-20)

           5. Recommendation 7:
           The Commander, Combined Security Transition Command-Afghanistan, reduce the fiscal year
           2013 request to that required for 3 months--$ 40.6 million-to correspond with the 12-month
           fiscal year fuel requirement for ANP, which ends September 30, 2013 and put the remaining $94
           million to better use within Afghanistan Security Forces Fund.

               CSTC-A response:

                   a.   CSTC-A concurs with the SJGAR recommendation to reduce the fiscal year 2013
                        request to that required for 3 months--$ 40.6 million-to correspond with the 12-
                        month fiscal year fuel requirement for ANP, which ends September 30, 2013 and put
                        the remaining $94 million to better use within Afghanistan Security Forces Fund.

                   b. ASFF is a 2-year appropriation and no FY13 funds have been provided to-date as
                      direct contributions to Mol. Currently, best estimates put POL transition in the
                      January 2014 tirneframe. Before releasing direct contribution funds in support of
                      Afghan contracts for POL, CSTC-A will certainly apply due diligence to the estimated
                      amounts required.

            6. Recommendation 8:
            The Commander, Combined Security Transition Command-Afghanistan, obtains and uses fuel
            consumption data from all ANP units as a basis to revise fuel budget estimates for fiscal years
            2014 through 2018.

            CSTC-A response:
                   a. CSTC-A concurs with the SIGAR recommendation to obtain and use fuel
                      consumption data from all ANP units as a basis to revise fuel budget estimates for
                      fiscal years 2014 through 2018.

                   b. Per IJC Daily FRAGO 17-08-13, a periodic audit schedule will help establish the
                      veracity of the fuel ordering documentation.

                   c. Per Mol Fuel Policy, MMC-P validates all fuel orders based upon consumption data
                      provided by Mol Form 32. Therefore, all orders validated and approved by MMC-P
                      can be viewed as supported by consumption documents. As CSTC-A does not place
                      any orders that have not been validated by MMC-P; historical ordering information
                      can be seen as a reasonably reliable predictor of future requirements.

                   d. For the requirements for outyears 14- I 8, CSTC-A used a generator study and a ANP
                      ground fuel summary to determine bulk fuel requirements. The RRD is the document
                      for ANP and was used as basis for POM requirements.



                                                       Page 4 of5




SIGAR 14-1-AR/Afghan National Police Fuel Program                                                             Page 20
SIGAR 14-1-AR/Afghan National Police Fuel Program   Page 21
                                   SIGAR Response to CSTC-A Comments
    1. SIGAR revised the recommendation to reflect the new, lower number of authorized ANP locations.




SIGAR 14-1-AR/Afghan National Police Fuel Program                                                 Page 22
APPENDIX IV - ACKNOWLEDGMENTS

Preston S. Heard, Senior Program Manager
Steven R. Haughton, Auditor-in-Charge
Christina M. Andersson, Senior Analyst




SIGAR 14-1-AR/Afghan National Police Fuel Program   Page 23
                                         This audit report was conducted
                                         under project code SIGAR-070A.




SIGAR 14-1-AR/Afghan National Police Fuel Program                          Page 24
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
